HHS/OIG-Audit--"Review of Health Care Financing Administration's Regional Office Accounts Receivable In Region X, (A-10-00-00002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Health Care Financing Administration's Regional Office Accounts Receivable in Region X," (A-10-00-00002)
February 23, 2000
Complete
Text of Report is available in PDF format (201 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In accordance with an interagency agreement, the Office of Inspector General (OIG) has performed a review of the Health
Care Financing Administration's (HCFA) Region X accounts receivable at October 1, 1998 and additional receivable activity
for the 6 months ending March 31, 1999. The results of this review will be considered in the preparation of the Fiscal
Year (FY) 1999 financial statements for HCFA.
We found that Region X's accounts receivable were overstated by $4.7 million and that financial adjustments and procedural
improvements need to be made or else HCFA's FY 1999 financial statements could be misstated